Case No.

W- lot's

THE SUPREME COURT
OF THE UNITED
STATES
Jean Coulter, Petitioner
v.
Tony Bagnato, et. al., Respondents

On Petition for Certiorari
to the Supreme Court of Pennsylvania

Petition for Writ of Certiorari

FILED
DEC 2 I 2020
.SUpl?EEM^FColjRTLn qK

Jean Coulter, Petitioner
620 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

received'
JAN 2 5 2021

This year will be remembered by the images of
several major Natural Disasters - including the
refrigerated trucks holding victims of COVID-19 as
well as the orange glow of the skies of California
from the massive wildfires. There are also tragic
images of Man-Made Disasters, including Body-Cam
videos of killings at the hands of Law Enforcement
and of course the massive World-Wide Protests of
such examples of Police Brutality.
Quickly though, attention shifted from
exclusively the individual acts of brutality, to how
the entire “system” has become so corrupt - as
months ago, attention began being directed at local
Prosecuting Attorneys and their role in the violation
of Rights by members of the Justice System. Soon
(perhaps with that same speed and intensity) the
full-extent of the corruption of our Justice System
will be exposed!
This case concerns the “Justice System’s”
promulgates an Unconstitutional Rule of Court - in
order to shield members of the “Just Us System”
from the civil repercussions of their entirely
improper (and too frequently, criminal) activities and the resulting Unconstitutional Order(s) directed
against Coulter.
QUESTIONS PRESENTED________
a.
1. a. Is Pa. R.C.P. Rule 233.1 Unconstitutional?
b. Is Pa. R.C.P. Rule 233.1 Unconstitutionally
Vague?
3. Were Coulter’s Due Process Rights violated?
4. Has pervasive bias (favoring “Justice System”
defendants) resulted in the violation of Due Process
in the Pennsylvania courts system-wide?

i.

b.

PARTIES IN THE LOWER COURT

Petitioner
Jean Coulter
Respondents
Philip A. Ignelzi,
Timothy P. O’Reilly,
Ronald W. Folino,
Tony Bagnato,
Jamie L. Lenzi,
Cipriani & Werner
and David N. Wecht
LIST OF PROCEEDINGS
Trial Court
Allegheny County Court of Common Pleas
No. GD-15-02176
Coulter vs. Bagnato et. al.
Judgment - Order filed December 17, 2015. i
(The Order Striking/Opening Default Judgment, was
filed February 17, 2016 is the last order by the Trial
Court - and why Coulter’s requested Mandamus.)
Appellate Court - Petition for Mandamus
Supreme Court of Pennsylvania - Western District
No. 59 WM 2020
Coulter, J., Pet. v. Tony Bagnato, et al.
Denial of Mandamus July 31, 2020
1 This Order is interlocutory because of an existing Default
Judgment against four (4) of the Defendants (filed on August 5,
2015), which, apparently the judge was unaware of.

c.
a.
b.
c.

TABLE OF CONTENTS
Questions Presented
Parties in the Lower Court
Tables of Contents and Citations

11.

i.

u.
ui.

d.
e.
f.
gh.

l.

1.
2.
3.
4.

5.
6.
7.
8.

9.
10.

Citations of Opinions and Orders
Statement of the Basis for Jurisdiction
Constitutional Provisions, Statutes,
Ordinances
Concise Statement of the Case
Argument
1.
Pa. R.C.P. Rule 233.1 exceeds
rule-making authority of the state’s
highest court - violating Equal
Protection and Due Process
2.
Rule 233.1 is
Unconstitutionally Vague
3.
Pervasive Bias in the state
Courts, system-wide makes Due
Process impossible
Conclusion

1.
1.
2.
4.
11.

22.
25.

33.

TABLE OF CONTENTS OF APPENDIX
Denial of Mandamus
la.
Motion for Reconsideration in Trial
Court
2a.
Memorandum Opinion and
15a.
Order
40a.
Pennsylvania Constitution
§ 1. Inherent Rights
45a.
§ 11. Courts to be open
Article V, § 1, 2, 5, 9
46a.
Pa.R.C.P. Rule 233.1
Gray v. Buonopane “First Impression” 51a.
Case for Pa. R.C.P. Rule 233.1
Hand Written Order (by Ignelzi)
71a.
re-assigning the case after
recusal)
Amended Complaint
72a.
Renewed Motion for Special Relief
101a.

ui.

11.

12.
13.

14.

15.
16.

Petition for Mandamus
104a.
Denial of Renewed Motion for Recusal 111a.
Petition for Allowance of Appeal in an 113a.
Unrelated manner but based
on the Order issued in this case
Motions Calendar - Ignelzi
147a.
in the Civil Division was for
only 5 days
Decision by Judge Wettick in an
148a.
unrelated case based on 233.1
Decision by Judge Wettick in this
154a.
in order to protect members
of the “Justice System” using 233.1

TABLE OF CITATIONS
Amendment XIV - Section 1, of the
United States Constitution
Amendment V of the United States
Constitution
§11. Courts to be open., Pennsylvania
Constitution
Article V, The Judiciary, § 10. Judicial
Administration, Pennsylvania
Constitution

2, 20.
2.
13.
14, 15.

28 U.S. Code § 1257- State courts; certiorari
1.
28 U.S. Code § 2072. Rules of procedure and 15, 16.
evidence; power to prescribe
Pa.R.C.P Rule 233.1. Frivolous Litigation
3.
Title 201, Chapter 7. Assignment of Judges
3.
Columbia Medical Group, Inc., 829 A.2d at 1190 12.
Daley, 37 A.3d at 1189-90
13.
Douglas, 372 U. S., at 357
20.

iv.

Gray v. Buonopane
Mississippi Pub. Corp. v. Murphree, 326
U. S. 438
Ross v. Moffitt, 417 US 600 - Supreme Court
1974
Shady Grove Orthopedic Associates v.
Allstate Ins., 559 US 393 - Supreme
Court 2010

v.

12.
17.
20.
17.

d.

REPORTS OF OPINIONS AND ORDERS
There are no reports of Opinions or Orders, as
the Trial Court has not yet produced a “Final Order”
(because there are still Claims and Defendants
remaining in the case). And, the state’s highest
court has again refused to consider any of the vital
issues raised, as it is apparent that there is no desire
to “examine” Pa.R.C.P.Rule 233.1 since it is
blatantly Unconstitutional.
I believe it is noteworthy that the decision
denying Mandamus (from the state’s highest court)
also specifically directs the Prothonotary to remove
the names of the Judicial Defendants from the
docket, as, apparently to connect those individuals
with this case would not be good for their reputations
outside of the courthouse.
JURISDICTIONAL STATEMENT
All of the matters under consideration at this
time were denied review by the Pennsylvania
Supreme Court on July 31, 2020.
Jurisdiction in this Honorable Court is
pursuant to 28 U.S. Code § 1257- State courts;
certiorari :
Final judgments or decrees rendered by
(a)
the highest court of a State in which a decision
could be had, may be reviewed by the Supreme
Court by writ of certiorari where the validity
of a treaty or statute of the United States is
drawn in question or where the validity of a
statute of any State is drawn in question on
the ground of its being repugnant to the
Constitution, treaties, or laws of the United
States, or where any title, right, privilege, or
immunity is specially set up or claimed under
e.

1.

the Constitution or the treaties or statutes of,
or any commission held or authority exercised
under, the United States.
f.

CONSTITUTIONAL PROVISIONS.
STATUTES. ORDINANCES

Amendment XIV - Section 1.
of the United States Constitution
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
Amendment V
of the United States Constitution
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a grand jury, except in cases arising
in the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without just
compensation.

2.

Pa.R.C.P Rule 233.1. Frivolous Litigation. Pro
Se Plaintiff. Motion to Dismiss.
(a) Upon the commencement of any action filed by
a pro se plaintiff in the court of common pleas, a
defendant may file a motion to dismiss the action on
the basis that:
(1) the pro se plaintiff is alleging the same or
related claims which the pro se plaintiff raised in a
prior action against the same or related defendants,
and
(2) these claims have already been resolved
pursuant to a written settlement agreement or a
court proceeding.
(b) The court may stay the action while the
motion is pending.
(c) Upon granting the motion and dismissing the
action, the court may bar the pro se plaintiff from
pursuing additional pro se litigation against the
same or related defendants raising the same or
related claims without leave of court.
(d) The court may sua sponte dismiss an action
that is filed in violation of a court order entered
under subdivision (c).
(e) The provisions of this rule do not apply to
actions under the rules of civil procedure governing
family law actions.
Title 201, Chapter 7. Assignment of Judges
RULES OF JUDICIAL ADMINISTRATION
ASSIGNMENT AND TRANSFER OF JUDGES
Rule 701. Assignment of judges to courts.
(E) Regional Administrative Units.
(2) In cases where a judge has disqualified
him or herself for any of the reasons specified in Rule
2.11 of the Code of Judicial Conduct or Rule 2.11 of

3.

the Rules Governing Standards of Conduct of
Magisterial District Judges, the assignment of
another judge to the case shall be made through the
Administrative Office. In other instances of recusal,
the assignment may be made through the Regional
Unit, but in no case shall a recusing judge select his
or her replacement.
g.

CONCISE STATEMENT OF THE CASE
This case involves the application of a
Rule of Court, Pa.R.C.P. 233.1 (which applies
exclusively to Pro Se Plaintiffs), and results in
the “modification” of the standards for
dismissal of the Civil Complaint - permitting
the matter to be dismissed if the Trial Court
determines that the Parties and Claims are
“related” in some manner to an earlier case rather than applying the standards of res
juricata and collateral estopple (which still
must be applied to cases where the Plaintiff is
represented by counsel).
Events Leading up to the Filing of the Complaint
This case apparently began when Coulter’s
case against the Allegheny County Bar Association
(“ACBA”) was filed - after the ACBA panel heard
Mediation involving Coulter and her former
attorney. At the completion of the hearing, the Panel
issued a decision for Arbitration despite the fact that
Coulter had only agreed to Mediation and there was
no contract between the Parties which required
Arbitration.
When Coulter filed the Complaint in that prior
matter, Coulter knew nothing of the steps being
taken “behind the scenes” (in that earlier case) until

4.

the point when the Motions Judge (Sr. Judge
Wettick) inexplicably agreed to order that
Preliminary Objections quickly be scheduled to be
heard on Coulter’s Complaint against the attorney
who had brought Coulter to the ACBC Panel.
Proceedings in the State Court
Coulter eventually learned that Respondent
Ignelzi (a judge in the county court’s criminal
division) had arranged to be very briefly (for just 5
days) (147a.) scheduled to the Civil Division exclusively so that Ignelzi could hear civil motions.
And it is clear that Ignelzi did so specifically to
assure that he would hear Coulter’s case involving
the mediation at the ACBA. When Coulter learned
of Ignelzi’s lengthy and deep connection with the
ACBA, she requested Recusal. Ignelzi agreed to
recuse, but first, Ignelzi (in a hand-written Order
(71a.)) personally Ordering :
"... The argument is continued to Feb 8th 2013
at 11:15am before the Motions Judge
Courtroom #817 City County Bldg. ... [Lenzi]
shall send a copy of the Order forthwith to all
parties.”
That Order was written to require that the matter be
heard exclusively by Respondent O’Reilly (a retired
judge who periodically served as a “senior judge” in
the county’s court) would be hearing motions, as
Judge Wettick was also hearing Motions (as Wettick
did every Friday) a couple of doors down the hall on
that same day and time. This assignment by Ignelzi
directly violates State Statutes/Rules (97a. - 98a.)
Coulter argued during the hearing for the case
against the ACBA, that O’Reilly had been improperly
assigned and lacked subject-matter jurisdiction —
and therefore must recuse. O’Reilly flatly refused

5.

and described O’Reilly’s discussions with a jurist
from the state’s appellate court, explaining that
O’Reilly was now anxious to begin his adjudication of
Coulter’s case.
During that proceeding, O’Reilly allowed other
cases filed by Coulter to also be presented, despite
Defendants’ Counsel admitting their complete failure
to provide any form of notice of presentation to
Coulter - and before Coulter was permitted to take
any steps to meaningfully defend her position,
O’Reilly bellowed out:
"It's true that this Court if for Justice, but it is
also for finality. YOU ARE GETTING
FINALITY! It's over. Put it behind you." (The
second sentence (in caps) was spoken in
increased volume and with significant
emphasis in tone.) (93a.)
(The hearing was never recorded in any manner,
however, Coulter’s account has never been disputed
by any of the Parties or Court Officers or employees.)
During that hearing (and one held the next
week), O’Reilly dismissed every case filed by Coulter
in the state courts, as violative of Pa.R.C.P. Rule
233.1 (“Rule 233.1”) - despite the fact that ah of
the cases had been transferred from the federal
court (after the “determination” that Coulter was a
citizen of Pennsylvania and thus the federal court
lacked subject-matter jurisdiction because there was
no Diversity of the parties). Coulter appealed
without success.
Procedural History
Coulter filed the Instant Matter in the state
court, and after a full-bench recusal, Senior Judge
Reed was assigned (apparently) through the
appropriately authorized procedures.

6.

After Senior Judge Reed reviewed Defendants’
filings, he determined that he should personally
undertake an investigation to find any/all other
case(s) which Coulter may have filed at some point:
“This Court found it necessary to review
Plaintiff Coulter’s approximately two dozen
prior lawsuits in order to determine if there
was any interconnectedness of her numerous
lawsuits, i.e. “related parties” and “related
claims” (11a.)
While some of the cases reviewed and cited by Sr.
Judge Reed were among those cited in Defendants’
filings in this matter, not all of them were. And, in
this manner the Trial Court purposefully chose to
violate Coulter’s Right to Due Process. (101a.)
Despite Coulter’s Argument that_“The doctrine of
Judicial Notice cannot be invoked to cover
evidentiary gaps of a party who has failed to meet a
burden of proof’, the Trial Court refused to recuse.
The retired Senior Judge spent more than six
(6) months (from June 10, 2015 to December 17,
2015), back on the state’s payroll, independently
researching and fabricating a basis for dismissal.
The result was a “Daisy Chain” (33a.) that the Trial
Court claims proves that the Claims are related and essentially determines that every judge is
“related to” every other judge, as well as every
attorney - and every member of law
enforcement and all attorneys are related to
all judges as well as all members of law
enforcement - and vise versa (as Rule 233.1
requires that the Parties as well as the claims, be
simply “related”) :
“... Each case filed by Coulter related to either
her criminal proceedings or the dependency

7.

and termination of parental rights
proceedings. Each case filed by Coulter named
as defendants individuals and agencies
involved in either her criminal proceedings or
the dependency and termination of parental
rights proceedings. All of these cases and their
progeny have been decided adversely to
Coulter.
Clearly, however, the Superior Court
agreed with Sr. Judge O'Reilly that all of the
cases subject to his Dismissal Order involved
"related parties" and "related actions." ...”
Thus the Trial Court’s decision essentially says, each
case involved events that were related to some other
court case, and each of the defendants in those cases
were somehow involved with every defendant in one
or the other of those court cases - so the Parties and
Claims must be “related”. (36a.)
The Point at Which the Federal Issues Were
First Raised in the State Courts
For all of these issues, the state’s highest court
has been notified, in the Petition for Allowance of
Appeal that I filed recently in another matter - in
which the Trial Court in a civil action involving
damages to a home (owned jointly with my sister)
was dismissed pursuant to the identical order which
forms the basis for this Petition for Certiorari
(113a.):
“... Pursuant to the Order of Court...
December 17, 2015, entered ... at Docket No.
GD-15-002176 ...”
despite the fact that when that Trial Court sua
sponte mentioned the Order, Coulter explained that
by its own terms it does not apply as it does not

8.

apply to matters pending at that time (and the case
against the neighbors had been filed several months
earlier). It is easy to see the similarity between this
Petition and the state court filing (in the appendix
beginning at (113a.)), as the argument portion of
that petition in the state court, is essentially an
earlier draft of the argument presented here.
The point at which the state courts had direct
notification of the issues
1.
The federal question involving the
Unconstitutionality of Rule 233.1 was raised in
the Trial Court in Coulter’s Motion for
Reconsideration. In the Trial Court’s decision the
Trial Court merely stated that the state’s highest
court had promulgated the rule, and thus the Trial
Court would not consider questioning it. (4a. - 5a.)
“Rule 233.1 violates the Pennsylvania - as
it obviously abriges and/or modifies
Coulter’s Right to access the courts to
settle disputes. ... Without substantial legal
authority, this Court is not inclined to
determine that the actions of the
Pennsylvania Supreme Court are
unconstitutional.”
The state’s highest court was made aware of
Coulter’s argument that Rule 233.1 is
unconstitutional, when the Trial Court
acknowledged that Coulter continued to fight the
application of Rule 233.1 and that acknowledgment
was part of the exhibits to the Petition for Writ of
Mandamus (108a. - 110a.) Because Mandamus was
denied, the state’s highest court passed on
considering this issue.
2.
The specific federal issue of the
“unconstitutionally vague” wording of Rule 233.1

9.

is was raised in Coulter’s Renewed Motion for
Special Relief (102a.) in paragraph 4.
3.
The violation of Due Process was also in this
Renewed Motion for Special Relief :
without
permitting Coulter to protect her Right to Due
Process...”. (103a.)
The state’s highest court
"... That Order of December 23, 2015, was
undoubtedly the most blatant example of
judicial bias resulting from the use of ExtraJudicial information by any judge in any
jurisdiction! Further, it is readily apparent
that the Trial Court’s Order of December 23,
2015, was produced as the result of
“considerations” provided to that Senior
Judge ...” (107a.)
4.
The issue of Pervasive bias was presented to
the state’s highest court in Coulter’s Petition for Writ
of Mandamus (105a.) :
“Mandamus is required as the Clerk of Civil
Records in Allegheny County has refused to
issue a second Default Judgment against the
Defendants - without support by any judicial
officer. Thus, Coulter’s Right to obtain
Default Judgment against these Defendants
has been denied, and Coulter has been unable
to have her claims against these same
Defendants, yet again.” (107a.)
It is further believed that all of the involved
Jurists, as well as the Allegheny County Civil
Records Clerk have continued to act in this
manner, in order to assure that the obviously
criminal actions by so many of the jurists in
Pennsylvania will be concealed from the eyes

10.

of the Public, the Media, and Jurists from
other Regions of the State and the Country as well as the World.
This issue was also passed on by the state’s highest
court.
Argument
(h)
1.
Pa. R.C.P. Rule 233.1 violates the
Constitution of the United States as it violates
the restrictions placed on the rule-making
authority of the Pennsylvania Supreme Court,
as found in the Constitution of Pennsylvania,
and thereby violates the guarantees of Equal
Protection and Due Process in the United
States Constitution - as Pa. R.C.P. Rule 233.1
restricts access to the courts by causing Civil
Complaints filed by Coulter (and all other Pro
Se Plaintiffs) to be adjudicated differently/
more expansively than Civil Complaints filed
by Plaintiff(s) represented by licensed counsel.
There is no dispute that Pa. R.C.P. Rule
233.1 (“Rule 233.1”) changes Pro Se Litigants’
access to the Pennsylvania courts and even the
state’s lower appellate court acknowledges that it
alters the manner in which the judge who is hearing
the case can determine if the matter will be
dismissed. This is because the judge is permitted to
dismiss a Pro Se Complaint based exclusively upon a
determination that Parties and Claims are somehow
“related” to those in some prior matter - rather than
on the basis of res judicata and collateral estopple.
This fact has even been publicly extolled by the
Pennsylvania Superior Court (the lower appellate

11.

court), in the Pennsylvania Precedential case Gray
v. Buonopane :
Contrary to Gray's suggestion, neither the
language of the Rule nor the explanatory
comment mandate the technical identity of
parties or claims imposed by res judicata or
collateral estoppel; rather, it merely requires
that the parties and the claims raised in
the current action be "related" to those in
the prior action and that those prior
claims have been "resolved."Pa.R.C.P.
233.1(a). These two terms are noteworthy in
their omission of the technical precision
otherwise associated with claim and issue
preclusion; whereas parties and/or claims
are to be "identical" under the purview of
those doctrines, Rule 233.1 requires only
that they be sufficiently related to inform the
trial court, in the exercise of its discretion,
whether the plaintiffs claim has in fact been
considered and "resolved." The drafting
committee's recourse to the word "resolved" in
this context is equally significant. In the
Rule's requirement that the matter have been
"resolved pursuant to a written settlement
agreement or a court proceeding," the
language assures that the pro se litigant is
availed of a chance to address his claim
subject to the contractual guarantee of a
settlement agreement or to the procedural
safeguards that attend a court proceeding. It
does not require, however, that the matter has
progressed to a "final judgment on the merits,"
Columbia Medical Group, Inc., 829 A.2d at
1190, nor does it require the "identify of the

12.

quality or capacity in the persons for or
against whom the claim is made[,]" Daley, 37
A.3d at 1189-90. ...” (62a.) (emphasis
added}
Summary of the Argument
The Pennsylvania Constitution clearly
requires that Coulter have access to the courts :
“All courts shall be open; and every man for an
injury done him ... shall have remedy by due course
of law...” :
“CONSTITUTION
of the
COMMONWEALTH OF PENNSYLVANIA
Article I
DECLARATION OF RIGHTS
That the general, great and essential
principles of liberty and free government may
be recognized and unalterably established, WE
DECLARE THAT § 11. Courts to be open; suits against the
Commonwealth. All courts shall be open; and
every man for an injury done him in his lands,
goods, person or reputation shall have remedy
by due course of law, and right and justice
administered without sale, denial or delay.
Suits may be brought against the
Commonwealth in such manner, in such
courts and in such cases as the Legislature
may by law direct. (45a.)
And, while the Pennsylvania Constitution permits
the Pennsylvania Supreme Court to “prescribe
general rules governing practice, procedure and the
conduct of all courts”, those rules must comply with

13.

the restriction that the rules proscribed by the
Supreme Court: “neither abridge, enlarge nor
modify the substantive rights of any litigant” :
“ARTICLE V
THE JUDICIARY
§ 10. Judicial administration.
... I The Supreme Court shall have the power
to prescribe general rules governing practice,
procedure and the conduct of all courts ... if
such rules are consistent with this
Constitution and neither abridge, enlarge
nor modify the substantive rights of any
litigant, nor affect the right of the General
Assembly to determine the jurisdiction of any
court or justice of the peace, nor suspend nor
alter any statute of limitation or repose. ...”
{emphasis added) (47a.)
It is readily apparent that Coulter’s Right to
access to the courts (like that of all Pro Se Plaintiff s)
has, at the very least, been modified by Rule 233.1.
It is also readily seen that the limitations on
Coulter’s filings are imposed simply based on the
single fact that Coulter is not represented by
Counsel. Rule 233.l’s differing (and significantly
more severe) treatment of Coulter is based
exclusively on the fact that Rule 233.1 permits a
judge to rule on Coulter’s Civil Complaint
based on a different set of rules, simply because
Coulter is part a “class” of litigants who are not
represented by Counsel. So, if it is determined that
Coulter’s Right to access has not restricted to
exclusively procedural modifications, then the
restrictions placed on all Pro Se Plaintiffs (including

14.

Coulter) violates the restrictions on the Rule, as
clearly stated in the Pennsylvania Constitution.
Argument- Rule 233.1 violates the restrictions on
the rule making authority of the
Pennsylvania Supreme Court
In Section § 10. Judicial administration,
the Pennsylvania Constitution specifically
prohibits any rule/rules to even “modify” Coulter’s
substantive rights - and the specific wording of
Pennsylvania Rule 233.1 appears to be “borrowed”
directly from 28 U.S.C. §2072 which defines the
limits on this court’s powers using the identical
wording as is used in the Pennsylvania
Constitution :
“28 U.S. Code § 2072. Rules of procedure
and evidence; power to prescribe
(a) The Supreme Court shall have the power
to prescribe general rules of practice and
procedure and rules of evidence for
cases in the United States district courts
(including proceedings before magistrate
judges thereof) and courts of appeals.
(b) Such rules shall not abridge, enlarge or
modify any substantive right. All laws in
conflict with such rules shall be of no
further force or effect after such rules have
taken effect. ...”
And just like §2072, the authority for the
Pennsylvania Supreme Court to promulgate Rule
233.1 or any other Rule of Court, requires that the
rule must comply with restrictions of § 10. Judicial
administration, of Pennsylvania’s Constitution.
Section 10 requires that the Pennsylvania Supreme

15.

Court is also authorized only to prescribe general
rules which : “...neither abridge, enlarge nor modify
the substantive rights of any litigant”.
As both this court and the Pennsylvania
Supreme Court are bound by the identically worded
restrictions on the court’s promulgation of rules (with
respect to that rule’s affects on the litigants rights),
it should be reasonable to look at this court’s decision
with respect to this courts authority to promulgate
rules - as there exists absolutely no Case Law
regarding the Pennsylvania Supreme Court’s
authority with respect to Pennsylvania Rule 233.1,
simply because the PA Supreme Court has refused to
ever permit such a consideration to occur, as the
state’s highest court has discretionary review.
Decisions as related to 28 U.S.C. §2072
Decisions by this court, with respect to 28
U.S.C. §2072, explain that a procedural rule
may affect substantive rights, but that rule is
only valid when/if it only merely incidentally
affects the person’s substantive rights.
28 U.S.C. §2072, also referred to as the “Rules
Enabling Act” authorize this court to create its own
procedural rules. However, this court’s_authority in
declaring those rules is not unlimited (just as the
state court’s authority is also limited), as 28 U.S.C.
§2072_require that:
Such rules shall not abridge, enlarge or modify
any substantive right. All laws in conflict with
such rules shall be of no further force or effect
after such rules have taken effect.
Because the Pennsylvania Constitution utilizes the
identical wording as is used by 28 U.S.C. §2072, it is
believed that the rule-making authority of the

16.

Pennsylvania Supreme Court is restricted in a
manner similar to that with which this court is
restricted - so examination of the determinations
with respect to 28 U.S.C. §2072, should provide
guidance for this court’s determination.
As this court determined in Shady Grove
Orthopedic Associates v. Allstate Ins., 559 US 393 Supreme Court 2010, citing Mississippi Pub.
Corp. v. Murphree, 326 U. S. 438. this court
explains what is meant by the wording of 28 U.S.
Code § 2072 :
The test is not whether the Rule affects a
litigant's substantive rights; most procedural
rules do. Mississippi Publishing Corp, v.
Murphree. 326 U.S. 438. 445. 66 S.Ct. 242. 90
L.Ed. 185 (1946). What matters is what the
Rule itself regulates: If it governs only "the
manner and the means" by which the
litigants' rights are "enforced," it is valid;
if it alters "the rules of decision by which
[the] court will adjudicate [those] rights,"
it is not. Id. at 446, 66 S.Ct. 242 (internal
quotation marks omitted). ...” (emphasis
added)
In the Instant Matter, the Trial Court, acting
sua sponte, undertook an extensive research of cases
filed by Coulter, and after determining that Coulter’s
Complaint did not violate Rule 233.1 with respect to
the cases advances by Defendants “
“
It is not alleged that Coulter is suing
the “same defendants” in the above-captioned
action. Coulter has never previously filed suit
against the Defendants Bagnato, Folino,

17.

Lenzi, . Cipriani & Werner, Ignalzi, O'Reilly
or Wecht.
There is some dispute whether Coulter
is alleging the “same claims” raised in prior
actions because in several of Coulter’s prior
actions, she has also claimed that the
defendants therein “conspired to deprive
Coulter of her rights, breach of contract, fraud,
etc.” However, the basis of Coulter’s claims of
“breach of contract, fraud, etc.” are alleged to
have arisen through the conduct of those
defendants named in those prior law Suits, not
the conduct of the Defendants herein.
Therefore, a strict construction of the “prior
claims” provision would lead to the conclusion
that the claims raised in the above-captioned
action are not the same claims raised in these
prior cases.
Since they are not the “same
defendants” nor the “same claims,”
Coulter’s instant action is not “frivolous”
under Rule 233.1(a) — unless the
Defendants herein are “related
defendants” and the claims herein are
“related claims” as argued by Defendants.
It is obvious that Coulter has created a
“daisy chain,” each link being represented by
another lawsuit wherein that link references a
prior lawsuit, i.e. a previous link.
In this manner, Coulter has fashioned
and tied together an elaborate chain of events,
... She has construed the conduct of virtually
everyone who has had any role in her

18.

numerous cases as evidence of a common
design and conspiracy to cause her injury. ...”
(emphasis added) (36a.)
Indeed, by the Trial Court’s own logic and
expressions, “Since they are not the “same
defendants” nor the “same claims,” Coulter’s instant
action is not “frivolous” under Rule 233.1(a) — unless
the Defendants herein are “related defendants” and
the claims herein are “related claims” as argued by
Defendants.”, and it is upon the basis of the Trial
Court’s own determination of the existence of a
“daisy chain” “relating” the various parties and
claims, which provides the Trial Court’s
support for a determination that Rule 233.1
applies and therefore Coulter’s Civil Complaints
could be dismissed pursuant to Rule 233.1.
It is readily apparent however, that the Trial
Court would never have been able to “justify” the
dismissal of Coulter’s Civil Complaint, had it not
been for the fact that Rule 233.1 “alters "the rules
of decision by which [the] court will
adjudicate” - which means that Rule 233.1
violates the restrictions as have been determined by
this court for 28 U.S.C. §2072, as well as those
imposed on the rule-making authority of the
Pennsylvania Supreme Court by the Pennsylvania
Constitution
Once it has been determined that Pennsylvania
Rule 233.1 violates the Constitution of
Pennsylvania by Unconstitutionally altering a
Pro Se Litigant’s access to the courts, it must
be found that Rule 233.1 also violates the
United States Constitution.

19.

The United States Supreme Court decision in
Ross v. Moffitt, 417 US 600 - Supreme Court 1974
has determined that, pursuant to the requirements
of the 14th Amendment to the Constitution of
the United States - that the state acts
unconstitutionally, when the state treats the
members of two group differently and the differing
treatment results in lesser rights being afforded to
the members of one of those groups:
“Language invoking equal protection notions
is prominent both in Douglas and in other
cases treating the rights of indigents on
appeal. The Court in Douglas, for example,
stated :
“[WJhere the merits of the one and only
appeal an indigent has as of right are
decided without benefit of counsel, we
think an unconstitutional line has been
drawn between rich and poor.” 372 U.
S., at 357. (Emphasis in original.)
The Court in Burns v. Ohio, stated the issue in
the following terms :
“[0]nce the State chooses to establish
appellate review in criminal cases, it
may not foreclose indigents from access
to any phase of that procedure because
of their poverty.” 360 U.S., at 257.
... The Fourteenth Amendment "does not
require absolute equality or precisely equal
advantages," San Antonio Independent School
District v. Rodriguez, 411 U. S. 1, 24 (1973), ...
It does require that the state appellate system
be "free of unreasoned distinctions," Rinaldi v.
Yeager, 384 U. S. 305, 310 (1966), and ... have
an adequate opportunity to present their

20.

claims fairly within the adversary system.
Griffin v. Illinois, supra; Draper v.
Washington, 372 U. S. 487 (1963)... ”
In the Instant Matter, the “unconstitutional line”
that is drawn between groups, concerns those
represented by counsel and those presenting their
cases pro se, which in many cases, is identical to the
line being drawn between rich and poor - or perhaps
more frequently, between those seeking “justice”
from members of the “Justice System” and those
seeking recovery from one of their fellow “civilians”.
Thus, it seems obvious that Rule 233.1
violates both the Equal Protection and the Due
Process Clauses of the United States Constitution
through its application of different state rules upon
different classes of litigants - particularly when one
looks back at that this court’s determinations in
Ross v. Moffitt. which makes the connection
between the Fourteenth Amendment and the
basic concept that the Law should not be based on
“unreasoned distinctions” as they ultimately result
in inequitable treatment:
“... The Fourteenth Amendment "does not
require absolute equality or precisely equal
advantages," San Antonio Independent School
District v. Rodriguez, 411 U. S. 1, 24 (1973), ...
It does require that the state appellate system
be "free of unreasoned distinctions, ..."
Further, Due Process is required in Civil
Matters just as it is in Criminal Matters. Any
situation where one’s Property or Rights may be
affected, requires Procedural Due Process, as
explained in Baldwin v. Hale. 68 US 223 - Supreme
Court 1864 :

21.

“Parties whose rights are to be affected are
entitled to be heard; and in order that they
may enjoy that right they must first be
notified. Common justice requires that no man
shall be condemned in his person or property
without notice and an opportunity to make his
defence. Nations et al. u. Johnson et al.. 24
How., 203; Boswell's Lessee v. Otis et al., 9
How., 350: Oakley v. Asmnwall. 4 Comst., 514.
Because Pro Se Plaintiffs are not permitted to have
equal access to the state courts by Rule 233.1, the
Right of Due Process under the United States
Constitution are violated because Pa.R.C.P. Rule
233.1 unconstitutionally restricts Coulter’s
access to the courts - in violation of the
Constitution of the United States!
Rule 233.1 violates both the United States
2.
Constitution as well as the Pennsylvania
Constitution and is unconstitutional
because the wording of Rule 233.1 is
unconstitutionally vague.
This court has explained that “an
enactment is void for vagueness if its prohibitions
are not clearly defined, in Grayned v. City of
Rockford, 408 US 104 - Supreme Court 1972 :
“... A. Vagueness
It is a basic principle of due process that an
enactment is void for vagueness if its
prohibitions are not clearly defined. Vague
laws offend several important values. First, ...
we insist that laws give the person of ordinary
intelligence a reasonable opportunity to know
what is prohibited, so that he may

22.

act accordingly. ... A vague law impermissibly
delegates 109*109 basic policy matters to
policemen, judges, and juries for resolution on
an ad hoc and subjective basis, with the
attendant dangers of arbitrary and
discriminatory application. [5] Third, but
related, where a vague statute “abut[s]
upon sensitive areas ... ”[6] it “operates to
inhibit the exercise of [those] freedoms
Indeed, the decision by the Pennsylvania Superior
Court in Gray v. Buononane. 53 A. 3d 829 - Pa:
Superior Court 2012 recognizes the inherent
“vagueness” of the Rule’s wording, and even
highlights that characteristic in the decision :
“... Pa.R.C.P. 233.1 Comment.
Contrary to Gray’s suggestion, neither the
language of the Rule nor the explanatory
comment mandate the technical identity
of parties or claims imposed by res
judicata or collateral estoppel; rather, it
merely requires that the parties and the
claims raised in the current action be
“related” to those in the prior action and
that those prior claims have been
“resolved .”Pa.R.C.P. 233.1(a). These two
terms are noteworthy in their omission of the
technical precision otherwise associated with
claim and issue preclusion; whereas parties
and/or claims are to be “identical” under the
purview of those doctrines, Rule 233.1
requires only that they be sufficiently related
to inform the trial court, in the exercise of its

23.

discretion, whether the plaintiffs claim has in
fact been considered and “resolved.” ...”
(emphasis added)
Previously, This Court has seen in matters presented
by Coulter that the lower courts have determined
that each and every judge is “related” to every other
judge - as well as being “related” to every “Attorney”,
and every member of “Law Enforcement” to - and
that Attorneys and members of Law Enforcement are
also related to those in both of the other “groups”
also, are related to each other. However, similar
cases which are not subject to Rule 233.1 are only
dismiss-able when the defendants are identical and
the claims are also identical - pursuant to Res
Judicata and Collateral Estopple. Thus, had Rule
233.1 not been applied in the Instant Matter,
Coulter’s Complaints could not have been dismissed
and this is simply possible because of the vagueness
inherent in the carefully chosen wording of
Pennsylvania’s Rule 233.1.
Due Process is required in Civil Matters just
as it is in Criminal Matters. Any situation where
one’s Property or Rights may be affected, requires
Procedural Due Process, as explained in Baldwin v.
Hale. 68 US 223 - Supreme Court 1864 :
“Parties whose rights are to be affected are
entitled to be heard; and in order that they
may enjoy that right they must first be
notified. Common justice requires that no man
shall be condemned in his person or property
without notice and an opportunity to make his
defence. Nations et al. v. Johnson et al.. 24
How.. 203: Boswell's Lessee v. Otis et al.. 9
How.. 350: Oakley v. Aspinwall, 4 Comst., 514.

24.

As explained by In re Disciplinary Proceeding
Against Halev. 126 P. 3d 1262 - Wash: Supreme
Court 2006 :
"statute, rule, regulation, or order is fatally
vague only when it exposes a potential actor to
some risk or detriment without giving fair
warning of the nature of the proscribed
conduct"); see also In re Ruffalo, 390 U.S. 544,
552, 88 S.Ct. 1222, 20 L.Ed.2d 117 (1968)
(holding that, in state disbarment proceeding,
"absence of fair notice as to the reach of the
grievance procedure" violated attorney's due
process rights”
Because of the Unconstitutionally vague
wording of Pa. R.C.P. Rule 233.1, determinations
cannot be reasonably expected to be applied
uniformly as each jurist must make significant
interpretations which may well differ from jurist to
jurist and case to case. Therefore, the
unconstitutionally vague wording of Rule 233.1,
results in inequitable application of the Rule as its
enforcement is inconsistent, at best - simply because
the wording of the Rule does not make it clear what
the limitations on its application are intended to be and Rule 233.1 must be determined to be
unconstitutionally vague and therefore void!
3.
Pervasive Bias within the Pennsylvania
Courts System-Wide, makes it essentially
impossible for any Plaintiff to successfully
recover from a defendant or defendants, if any
one of those defendants are members of the
“Justice System” (employed as judges,
attorneys, members of law enforcement) or

25.

associated in some manner with one or more of
these groups.
Although there is no shortage of Case Law on
the issue of Pervasive Bias, essentially every decision
determines that there is not sufficient evidence in
that particular matter, for The Court to recognize
this exception to the Extrajudicial Source Doctrine.
In this case though, there is clearly more than
enough evidence to prove not merely bias against
Coulter personally, but also that the evidence
conclusively shows that in Pennsylvania’s Courts, a
judge’s bias against a Pro Se Litigant is not merely
“accepted”, it is actually encouraged - especially
when one or more of the Defendants are members of
the Justice System.
1.
There is clear evidence of bias by
Defendant/Respondent Ignelzi despite Ignelzi
having no knowledge of Coulter (beyond the
fact that she had filed suit against the ACBA)2
2
Coulter’s attorney had arranged for their “fee dispute”
to be heard by a Panel at the ACBA. Even before the date of
the Hearing, Coulter repeatedly explained to ACBA’s employee
in charge of the Fee Dispute Committee - that the written
agreement with her attorney (which did contain an Arbitration
Clause), had expired, by its own terms, following the
“investigative” period which Mahood required in order to decide
whether he could accept the case as it was already well
underway when they first met - and that Coulter absolutely
refused to take part in Arbitration :
“...In the event that we determine to represent
Ms.Coulter after our consultation as above described,
we will do so by separate letter and retainer at that
time. ... “ (107a.)
However, there was never an agreement signed to replace the
one exclusively for the “investigation” period and there was
never an Oral Agreement for Coulter and her attorney to

26.

Evidence of the extreme and Pervasive Bias
against all Pro Se Plaintiffs exist in every level of
the Pennsylvania courts. In the Trial Court, Judge
Ignelzi, who is assigned to the Criminal Division,
chose to accept a (very short-termed) assignment to
the Civil Division — for 5 days, with the obvious
intent of assuring that Coulter’s case against the
ACBA would be dismissed instantaneously so that
the wrong-doings of both Coulter’s attorney and the
ACBA could be swept under the rug! Coulter and
Ignelzi have never met, and as Ignelzi was assigned
exclusively to the Criminal Division, it is highly
unlikely that Ignelzi ever heard of Coulter and
certainly Ignelzi had no way of knowing that the suit
against the ACBA was not the first Civil Complaint
that Coulter had ever filed. Still though, Ignelzi
was willing to become part of what is likely a
criminal act, to assure that Coulter’s Right to
Due Process was violated “Under the Color of
Law”.
continue the terms of the old agreement. Indeed, as the result
of secret conversations with the Judge in Butler County (which
Coulter did not learn of until shortly before the Parties went
before the ACBA Panel Mahood had intentionally concealed
many facts from Coulter. Mahood had asked Coulter to agree
that he would conceal all information (ostensibly because he
was concerned that their written communications might be left
lying around for some unidentified others to read). When
Coulter refused, Mahood apparently chose to not provide a
written agreement at all - as without Coulter’s agreement (that
she be kept entitely in the dark), Mahood clearly would be
violating either his Contract with Coulter or his secret
agreement with the Judge in Butler County.
When, near the end of the hearing, the Panel asked
Mahood why he had kept Coulter in the dark for so long,
Mahood responded saying only that in retrospect he no longer
believed that his decision to do so was the right one.

27.

2.
There is clear evidence of bias by
Defendant/Respondent Bagnota, who refused
to file Coulter’s Preliminary Objections based
on Questions of Fact, thus allowing the
Defendants in her case(s) to be heard that very
day - rather than requiring rescheduling (as is
absolutely required by Local Rule). (76a.)
Indeed, Bagnato, the “Motions Clerk”
expressed clear bias, stating that he Bagnato was
certain that Coulter’s Preliminary Objections
were untruthful (76a.) — and Bagnato absolutely
refused to file Coulter’s document. This bias was
clearly expressed - and proves blatantly open bias
toward a Plaintiff unknown to Bagnato (to the extent
that Bagnato refused to even perform the
responsibilities of his job). And Bagnato was
refusing to do his job, despite the fact that Bagnato
and Coulter had never before met, and as the
Motions Clerk, Bagnato would have had no personal
knowledge of Coulter as Coulter had never even had
paperwork go through his hands. (This is simply
because Coulter, like literally everyone else, chose
(whenever possible) to attend exclusively Judge
Wettick’s Motions Court (which was held every
Friday) as Judge Wettick had a reputation for well
reasoned and fair decisions - and Bagnato had
nothing to do with matters heard by Judge Wettick
each week. (Judge Wettick was so well thought of
that only Judge Wettick (among all of the Senior
Judges) had a sizeable staff assigned exclusively to
Judge Wettick, for every task that Bagnato could
possibly perform).
It is therefore likely that Bagnato either
accidentally overheard some of the County Judges

28.

rv-

discussing the matter - or perhaps more likely that
he was directly requested to become a participant in
the likely criminal actions taken against Coulter
during Motions Court. Either way, it is apparent
that Bagnato was merely “echoing” the opinions of
members of the county court — and is evidence of
Pervasive Bias.
There is evidence of Pervasive Bias of Sr.
3.
Judge Wettick, and his understanding of the
true intentions behind Rule 233.1 - and
displays the fact that even such a learned and
trusted jurist is willing to ignore his education
and his principles to protect one of his
Brethren.
In 2012, Senior Judge Wettick heard a matter
involving the Carnegie Library of Pittsburgh (the
City of Pittsburgh’s public library system) and
Thomas Crock. (148a.) The text of the appeal
explains that Crock had been barred from the
Carnegie Libraries in 2008. At that time Crock
received a letter from the Carnegie Libraries that,
because of his behavior, he was being banned for a
period of one year — and what Mr. Crock would be
required to do in order to have his access reinstated.
The letter explained that if Mr.Crock wished to be
permitted to use the libraries again, that Mr. Crock
must make a written request to the library and the a
meeting to discuss the libraries rules, and their
expectations of him. And, Mr. Crock filed a Civil
Suit (AR-10-000826), for damages caused by the
restrictions on his use of the library. Mr. Cross lost
that case.
At a point in 2012, Mr. Crock decided to
return to the library without following the
requirements placed on his use - as was explained to

29.

him in 2008. And, upon again being barred from
using the library, Mr. Crock filed suit. And, again,
Mr. Crock attempted to sue the library system. (AR12-2843) PA Superior Court appeal 1564 WDA 2012.
(153a.) Judge Wettick’s Decision in the matter
explains that Rule 233.1 does not apply because the
claims presented in the second case, are different
from those in the first. There is no lengthy
discussion, just an acknowledgment that when the
events occurred a couple of years apart, and
concerned a second refusal to permit Crock to utilize
the library - with this time being because Crock
refused to comply with the requirement that he meet
with library staff, while the first time was because
Crock’s behaviors inside the library were disruptive :
I am denying the request to dismiss
pursuant to Rule 233.1.
In the previous case (Crock v. Carnegie
Library, AR-10-000826), Mr. Crock sought
damages based on a decision of the Library,
contained in a letter to plaintiff, banning him
from Carnegie Library for a year.
In the present case, he seeks monetary
damages based on activities occurring after
the conclusion of the one-year ban.
Rule 233.1 does not apply. Plaintiff is
not raising the same or related claims which
he raised in the prior action.” (172a.)
However, in Coulter’s case, the Senior Judge
determined that various injuries caused by various
people under two different sets of circumstances are
somehow “related”, but only to the extent that the
then Instant Matter concerns “claims arising out of’
two cases in other divisions of the court - and
Coulter had previously had those cases dismissed.

30.

Clearly, Crock’s two cases both concerned the
library refusing to permit Crock to enter — yet the
Senior Judge (properly) determined that the claims
would not qualify for dismissal under the conditions
applied when the plaintiff is represented by Counsel.
Thus, it is readily apparent that when the
defendants are part of the Just Us System (as the
claims arose out events which occurred during a
prior court case rather than events which occurred
during a visit to the library) the Senior Judge’s
bias (in favor of the members of the Just Us
System), resulted in a decision that just as
clearly states the same sentiment that Sr.
Judge O’Reilly stated in open court:
“It’s true that the courts are for Justice
but they are also for Finality. YOU ARE
GETTING FINALITY! It’s over, put it
behind you.” (93a.)
when Defendant O’Reilly bellowed his
preference for “loyalty” over truth and justice
and duty, (see also page 6 of this document)
And, the extreme bias evidenced in the
4.
appellate courts of Pennsylvania is no less
blatant and no less extreme!
Indeed, the bias displayed by the En
Banc Superior Court decision is so extreme
that the En Banc Court has taken steps which
clearly cross the line between actions taken
under the Authority of Law and those taken
Under the Color of Law!
In an earlier case in the Pennsylvania
Superior Court, the Panel dismissed Coulter’s appeal
entirely improperly, and then relinquished
jurisdiction (in order to permit the Trial Court to

31.

require that Coulter pay the Defendant’s (an
attorney’s) legal expenses for the appeal.
However, following the docketing of the
dismissal (and remand to the Trial Court), there is
another anonymous Order which requires that
Coulter request permission to file Notice of Appeal,
or face potential criminal sanctions. (175a.) It
appears that the author of the “untimely” Order
(requiring Coulter request permission to exercised
her Constitutional Right of Appeal) (46a.) had
intended (somehow) to direct whoever would be on
any subsequent Motions Panel, to simply stall, until
after the date for filing Notice of Appeal had passed,
and thus “trick” Coulter into denying herself (by
missing the filing date for appeal), the Right of
Appeal which is guaranteed, without restriction, in
Pennsylvania by the Pennsylvania Constitution.
(175a. and 178a.)
However, Coulter was concerned that the
Motions Panel would not make their decision in time
for Coulter to be able to avoid traveling to the Butler
Courthouse so she could hand-deliver the Notice of
Appeal in Butler County - during a Pandemic. So,
Coulter sent a copy of her Notice of Appeal, and a
check for the fees to the Prothonotary of the Superior
Court with instructions to hold on to the paperwork
until after the Panel released its decision - which
Coulter felt certain would permit appeal, as to do
otherwise would blatantly violate Coulter’s
Constitutional Rights.3 While I cannot say with
100% certainty, it appears that this “insurance” is
In Pennsylvania, when the Notice of Appeal is sent to
3
the incorrect court, the filing date in the Trial Court is
considered to be the date that the Notice is received in the
Appellate Court (for calculating timeliness).

32.

what caused the Motions Panel to chose to deny
appeal. But what surprised even Coulter, a die-hard
believer that there is not a single honest judge
anywhere in Pennsylvania, is that the En Banc
Reconsideration of the Order denying Coulter her
Constitutional Right of Appeal, also resulted in at
least a majority of the Superior Court (a total of 15
judges), also chose to act outside of their authority to
do so - and Ordered that Coulter is not permitted to
exercise her Constitutional Right of Appeal! (144a.)
Coulter has never had any form of contact
with with any member of the state’s intermediate
appellate court other than through official filings and
their very limited contact during Oral Argument.
And, it is believed that none of the state’s appellate
judges is even personally aware of any of the
circumstances surrounding Coulter’s Complaints or
Appeals, outside of those shown in the official court
records. (While Coulter is aware of the periodic
meetings of all of the state’s jurists, Coulter is
completely unaware of what is done or said at those
meetings.)
It is impossible to imagine there being
more blatant proof of extreme and Pervasive
Bias, than for a minimum of EIGHT appellate
court judges to chose to deny Coulter her
Constitutional Rights to Due Process - and for
any/all dissenters to violate their Code of Conduct as
well (by failing to report the criminal actions of their
Brethren)!
i.

CONCLUSION
From my research, Pennsylvania is the only
state to promulgate a Rule of Court like this, which
is clearly intended to end every civil case against

33.

every member of the “Justice System, still however,
This Honorable Court must accept this matter
for consideration - or immediately Issue a
Decision which will declare Pa.R.C.P. Rule
233.1 void, and overturn any matters involving
this Rule of Court, as to do otherwise would signal
the Pennsylvania Judiciary that This Court will look
the other way to such blatant violation of the
Constitutional Rights of everyone who is injured by a
member of Pennsylvania’s “Justice System”!
Further, it is necessary, for a possibly
extended period of time, to remove the process of
dismissal on technicalities, from the hands of the
state’s jurists, any time that a member of the
“Justice System” is being brought into court to pay
for damages they have inflicted upon any “civilian”.
It has become painfully obviously that as long
as one member of the Justice System can use
their official position to shield one of their
“Brethren”, the public will not be afforded any
protection against the indiscriminate abuses
inflicted by those who are part of the “Just Us
System”!
Proposed Solution
This protection could be “easily” provided by
placing every decision in cases involving one or mere
Defendants from the “Justice System” - into the
hands of a “jury” (or panel of civilians (who are not
associated in any manner with a member of the
Justice Ssytem)). For example, when considering an
argument that the Complaint “fails to state a claim”
the “jury” (or panel, etc.) could be given a check-list

34.

of the necessary “elements” which must be pled for
each category of claim. Thus, when the checklist is
used in conjunctions with instructions which explain
that the juror must read the Complaint and then
determine that, if they were presented with evidence
or testimony that would support that Claim, they
must vote to permit the case to be prepared for Trial.
Essentially, of course, this is what the judge is
supposed to do when the judge considers those
matter in a case brought before him. However, all
too often the judge’s bias assures only that
their “Brethren” will be protected - regardless
of the effects upon their victim or even the
public as a whole!
I appreciate your thoughtful
consideration of this Petition for Certiorari,
and ask that you recognize the very real effects
that your decision in this matter will have on
others who have been (or may in the future be)
injured either intentionally or unintentionally
by members of our Justice System. Perhaps you
have noticed the series of articles which the Boston
Globe has run — there have been two or three
different series since 2018 - that are related to
issues in the state’s Justice System. The first one
that I became aware of concerned Massachusetts’s
“Secret Courts” where frequently state
employees or elected officials have their
criminal acts “considered” and then coveredup. The most recent series reports on blatant
crimes, like drunk driving, which have caused
serious injuries to innocent “civilians” - but the
Justice System closes ranks and, when needed,

35.

under the guise of incompetence, assures that the
perpetrator of those injuries can never be brought to
justice.
The processes which allow Law Enforcement,
Attorneys, and yes, even judges, to escape the
repercussions of their actions continues to injure so
very many people, and we must all take immediate
action so these abuses will be swiftly brought to an
end. This Court must act now, to end the injuries
which are being inflicted upon Americans by those
who are sworn to protect and uphold the law. This is
especially important as it is “crucial to our system of
justice” to assure that true Justice is available to
everyone, and no group is more equal than any other.
As Mr. Chief Justice Burger, stated in the case
of In re Griffiths. 413 US 717 - Supreme Court 1973.
raising this very Issue:
"The role of a lawyer as an officer of the court
predates the Constitution; ... always
within—never outside—the law... That
this is often unenforceable, that departures
from it remain undetected, and that judges
and bar associations have been singularly
tolerant of misdeeds of their brethren, renders
it no less important to a profession ... It is as
crucial to our system of justice as the
independence of judges themselves."
(emphasis added)
Respectfu'

ubmitted,

Jean Coulter, Petitioner

36.

